No.

 

IN THE
Supreme Court of the United States

FRANCISCO FELIX,
Petitioner
vw

UNITED STATES OF AMERICA,
Respondent

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari in the above-captioned case is 1,771 words, excluding the parts of

the document that are exempted by Supreme Court Rule 33.1(d).

As a member of the Supreme Court Bar, I declare under penalty of perjury that

the foregoing is true and correct.

Date: June 1, 2021 >
ELLIS M. JOHNSTON II

 
